OIG Investigative Reports, Louisiana 01/29/2010 -Bill of Information Charging School Employee with theft of Funds from Langston Hughes Charter School
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
The United States U.S. Attorney's Office
Eastern District of Louisiana
U.S. Attorney's
Office
Eastern District of
Louisiana
500 Poydras St
Suite 210-B
New Orleans,
Louisiana 70130
Tel: 504.680.3000
Fax: 504.589.4510
BILL OF INFORMATION CHARGING SCHOOL EMPLOYEE WITH THEFT OF FUNDS FROM LANGSTON HUGHES ACADEMY CHARTER SCHOOL
January 29, 2010
KELLY A. THOMPSON, age 39, a resident of New Orleans, Louisiana, was charged in a Bill of Information for Theft of Federal Funds from Langston Hughes Academy Charter School announced United States Attorney Jim Letten.
According to the Bill, THOMPSON was employed at Langston Hughes Academy Charter School as the Business and Human Resources Manager/Financial Manager beginning approximately July 1, 2008 until approximately November 6, 2009. It is alleged the defendant made cash withdrawals while acting in her capacity as Business and Human Resources Manager/Financial Manager, and then manipulated the school’s record in order to conceal the thefts. The alleged amount of loss to Langston Hughes Academy Charter School is approximately $660,000.
United States Attorney Letten reiterated that the bill of information is merely a charge and that the guilt of the defendant must be proven beyond a reasonable doubt.
In convicted, THOMPSON faces a maximum term of imprisonment of ten (10) years, a fine of $250,000 and up to three (3) years of supervised release following any term of imprisonment.
This case was investigated by the Federal Bureau of Investigation. The prosecution is being handled by Assistant United States Attorney Brian M. Klebba, Salvador Perricone and James R. Mann.
Download Bill of Information
Top
Printable view
Last Modified: 02/02/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov